                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________



                          Fourth Quarter (July 1 – September 30, 2012)
                           and Fiscal Year (FY) 2012 Summary Report

   Office of Inspector General’s (OIG) Survey of Farm Credit System (FCS) Institutions
                      Regarding the Agency’s Examination Function

Introduction
Based on the interface FCS institutions had with the Agency's examination function during the
period July 1 – September 30, 2012, the Office of Examination (OE) identified 25 FCS
institutions that were in a position to provide meaningful survey responses.

The OIG sent surveys to those 25 institutions on October 16. Of the 25 institutions surveyed,
23 submitted completed surveys. If a nonresponding institution subsequently sends a
completed survey, it will be included in the next quarterly report.

One response to the survey issued for the third quarter of FY 2012 was received subsequent to the
third quarter report being issued and is included in this report. Therefore, this report includes
responses from a total of 24 institutions.

The OIG will continue to provide an email report to you based on each FY quarter-end, i.e.,
December 31, March 31, June 30, and September 30, so that you may timely take whatever
action you deem necessary to address the responses. The fourth quarter report as of
September 30 will continue to include FY summary data.

The survey asks respondents to rate the eight survey statements from "1" (Completely Agree)
to "5" (Completely Disagree). The rating options are as follows:

        Completely Agree                1
        Agree                           2
        Neither Agree nor Disagree      3
        Disagree                        4
        Completely Disagree             5

There is also an available response of “6” (Does Not Apply) for each survey statement.

Narrative responses are provided verbatim, except that any identifying information has been
removed and any grammatical or punctuation errors may have been corrected. Any narrative
in “brackets” is explanatory information provided by the OIG based on conversations with
institution management.

Survey Results – Fourth Quarter FY 2012

Average numerical responses to survey statements 1-8 ranged from 1.8 to 2.1.

                      Average Numerical Responses to Survey Statements 1 – 8
         th                        rd                        nd                        st
       4 Quarter                  3 Quarter                 2 Quarter                 1 Quarter
        1.8 – 2.1                 1.6 – 2.4                  1.7 – 2.1                 1.7 – 2.1


December 20, 2012
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


The average response for all survey statements was 1.9.

                                Average Response for all Survey Statements
         th                           rd                       nd                       st
       4 Quarter                     3 Quarter                2 Quarter               1 Quarter
              1.9                          2.1                      1.9                      2.0



In this quarter, there were many more positive than negative narrative comments to survey
statements 1-8. (Negative comments of any degree are color coded in red.)

Survey item 9 asks for feedback on the most beneficial aspect of the examination process.
Consistent with prior quarters’ responses to this survey item, many very positive comments
were provided about the examiners and the examination process.

Survey item 10 asks for feedback on the least beneficial aspect of the examination process.
While most were negative, as would be expected, several comments provide a perspective that
should prove constructive. The first bullet under this survey item may be of particular interest.

Survey item 11 asks for any additional comments from the Board as a whole. This is a new
survey item beginning with this fiscal year inserted at the request of OE. It elicited a number of
thoughtful responses from Boards, which was the objective of the question. This quarter, most
of the Boards’ comments were positive. However, the first two bullets under this survey item
are of interest, particularly the second.

Survey Results – FY 2012 Summary
For FY 2012, the OIG issued 65 surveys and received 58 completed surveys. There are two
surveys from one institution included in this report, due to both the CEO and Audit Committee
Chair responding. An FY 2012 Summary Report is on page 12.

Responses to Survey Statements 1–8

                                             Examination Process

Survey Statement 1:                The scope of examination activities was focused on areas of risk
                                   to the institution and appropriate for the size, complexity, and risk
                                   profile of the institution.

    Average Response:              1.8 (3rd and 2nd Quarters were 2.1, 1st Quarter was 1.9)

    Comments:
            •           The scope of the examination focused on areas of risk but outcomes did not
                        seem to be appropriate for the size, complexity or risk profile of this
                        institution.
                    •   Exam team focused on high risk areas, had strong technical knowledge and
                        broad knowledge of the FCS.
                    •   Our institution has a high concentration in grain operations and the
                        institution territory was subjected to a severe drought. The institution
                        portfolio credit quality is also very high and there were mitigating factors for


 December 20, 2012                                                                                           2
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                     the impact of the drought. The examiners took all the information into
                     account as they focused on area of risk for the institution.
                •    Credit review appropriately focused on shared assets which we have sold to
                     the System and other exposures that are consistent with size, complexity
                     and risk profile. Operational exams were mostly conducted with risk and
                     complexity in mind, although sometimes exams may have been premature
                     due to implementation process of new programs (i.e., social media).
                •    Exam focused on higher risk areas.
                •    Overall scope was adequate in assessing institution’s risk based on size and
                     complexity.

Survey Statement 2:             Examiners appropriately applied laws, regulations, and other
                                regulatory criteria to examination findings and conclusions.

    Average Response:           2.0 (3rd Quarter was 1.9, 2nd and 1st Quarters were 1.8)

    Comments:
            •        Laws and regulations were appropriately applied during exam activities but
                     some other regulatory criteria appeared to be more appropriate for a larger
                     institution.
                •    The Internal Audit quality assessment was not necessarily a regulatory
                     requirement but certainly represents an industry best practice.
                •    Exam team effectively tied exam work to relevant laws and regs.
                •    The examination team is well informed with respect to laws, regulations, and
                     regulatory criteria. That knowledge was used appropriately during the
                     examination and when findings and recommendations were discussed.
                •    Examiners followed exam guidance and other criteria in almost all
                     examination findings and conclusions. We did experience limited examples
                     of examiners applying guidance on a risk rating scale that is system
                     developed rather than using the UCS classification prescribed by FCA.
                •    Exam team applied these appropriately.
                •    However, application of Standard of Conduct regulation appeared to be
                     inconsistent with the regulation as to inside or outside SOC officer. We also
                     had differences as to global underwriting procedures on multiply entity
                     borrowers.
                •    In most cases the examiners referenced the appropriate regulation or law in
                     evaluating a policy, procedure, or process.

Survey Statement 3:             The recommendations, required actions, and any supervisory
                                agreement with FCA assisted the board and management in
                                addressing the risks of the institution.

    Average Response:           2.0 (3rd Quarter was 2.4, 2nd Quarter was 2.0, 1st Quarter was 2.1)

    Comments:
            •        Some recommendations will provide board and management the means to
                     better evaluate the areas of risk in the institution.



 December 20, 2012                                                                                           3
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                •    While the recommended and required actions addressed issues in the
                     current FCA focus areas, they did not necessarily assist the board or
                     management in addressing the risks of the institution.
                •    Exam team’s observations were valuable in highlighting operating and
                     strategic risks for management and the board.
                •    The institution management and board appreciate the third party external
                     evaluation of risks facing the institution and the quality of operations
                     provided by the FCA examiners.
                •    Recommendations were useful and implemented.
                •    We agreed with all recommendations. There were no required actions or
                     supervisory requirements.
                •    One required action during the exam was to adjust quarter end numbers
                     after the end of the quarter to be reflective of recommended loan
                     downgrades. While we agree it is our responsibility to get them right and
                     understand the need to disclose accurately, the agency should consider
                     timing of onsite visits and materiality to the significant disruption to the roll up
                     of district financial statements this creates.
                •    The recommendations were appropriate and fair.


Survey Statement 4:              The examiners were professional and efficiently conducted
                                 examination activities.

    Average Response:            1.8 (3rd Quarter was 1.6, 2nd and 1st Quarters were 1.7)

    Comments:
            •        Examiners were professional and conducted activities with relative efficiency
                     considering the youth of the team.
                •    The process was fairly efficient but the Internal Examiner asked the same
                     question multiple times.
                •    Exam team was always very professional and interacted well with all levels
                     of the organization.
                •    While the amount of time examining the institution has grown significantly,
                     examiners were considerate and appeared to be efficient.
                •    We found the examiners to be well trained, knowledgeable and used our
                     time appropriately.
                •    A very professional and experienced team.
                •    All examiners were professional. Prior coordination of any offsite examiners
                     and their needs could be improved.
                •    All examiners were professional in their review techniques and allowed
                     adequate time for discussing an issue or concern.




 December 20, 2012                                                                                           4
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                                        Communications


Survey Statement 5:             Communications between the Office of Examination staff and the
                                institution were clear, accurate, and timely.

    Average Response:           2.0 (3rd and 2nd Quarters were 1.9, 1st Quarter was 1.7)

    Comments:
            •        For the most part, communications were timely and accurate but there were
                     some instances where the spirit of the message was not clear or
                     appropriately expressed.
                •    It appeared on occasion information provided was not received or misplaced
                     by the EIC.
                •    Clear and timely reporting and other communications. Lead examiner keeps
                     in close touch throughout the year.
                •    In addition, the communications were well coordinated between
                     management, board audit committee, and our internal review staff. Very
                     much appreciated.
                •    The amount, clarity, and timeliness of communication between the OIC and
                     our Board and executive management have improved significantly with our
                     new EIC.
                •    The pleasant and inviting atmosphere the exam staff exhibited promoted
                     open and helpful communication.
                •    Probably the best communications we have had in our experience.
                •    They appeared very rushed while on site. Might consider sending out all
                     questions prior to being on site and we will have the answers for you.
                •    All examiners were professional. Prior coordination of any offsite examiners
                     and their needs could be improved.
                •    There were no concerns expressed on the communication between staff and
                     the exam team.

Survey Statement 6:             Examination communications included the appropriate amount
                                and type of information to help the board and audit committee
                                fulfill their oversight responsibilities.

    Average Response:           1.9 (3rd Quarter was 2.3, 2nd Quarter was 1.8, 1st Quarter was 1.7)

    Comments:
            •        While overall communication was positive and productive, the discussion
                     with the CEO and the board on the overall FIRS ratings for the institution
                     provided little insight as to how effectively the institution is being managed.
                     In fact, the discussion seemed to reveal that the scores in Asset Quality and
                     Capital served as a proxy for the overall Management score.
                •    Examination report was clear and had the appropriate level of detail for the
                     board and audit committee.
                •    The discussion concerning risks facing the institution as well as examination
                     findings were very well articulated and understandable. Degree of risk and


 December 20, 2012                                                                                           5
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                     level of concern was openly discussed to the satisfaction of board,
                     management, and the exam staff.
                •    We value the oversight of our regulator, but it does not add value without
                     candor and trust. Again, this is an area where we have experienced
                     improvement under the new EIC, including greater meaningful
                     communications.
                •    We found the instructions were well designed and useful in our applications
                     of them.
                •    Team was very helpful to management, board, and Audit Committee.
                •    Delivery of any exit report prior to the exit interview/call should be delivered
                     in sufficient time to allow directors and staff to properly prepare for the
                     meeting.
                •    Required and recommended actions were appropriate and clear.

Survey Statement 7:             Examiners fairly considered the views and responses of the
                                board and management in formulating conclusions and
                                recommendations.

     Average Response:          1.9 (3rd Quarter was 2.1, 2nd Quarter was 1.9, 1st Quarter was 1.8)

     Comments:
            • The examiners did a good job listening and considering the responses of
               management. Because of the youth of the team, there were cases when the
               response of management was interpreted later and not during the
               conversation.
            • Exam team has always considered management’s views when drafting the
               examination report.
            • Appreciated their interaction, on site and off.
            • The discussions are always open, candid, and informative.
            • There was no opportunity for Board views and responses before the
               conclusions and recommendations were formulated.
            • Agree.
            • We believe the examination staff listened to our concerns.
            • Good dialog and discussions.
            • We were pleased that examination team did spend sufficient time and
               energies on loan review discussions. We would like to see that expanded to
               be inclusive of other areas examined as well.
            • The examiners allowed adequate time for challenges and discussion on
               issues. Management’s views were considered in the final determination of a
               concern.




 December 20, 2012                                                                                           6
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________



Survey Statement 8:             FCS-wide guidance from the Office of Examination was proactive
                                and helpful.

     Average Response:          2.1 (3rd Quarter was 2.3, 2nd Quarter was 1.9, 1st Quarter was 2.0)

     Comments:
            • Sometimes more than we need.
            • The guidance that is provided annually on the scope and focus areas for the
               coming years proves very useful to the institution.
            • Timely and relevant updates.
            • Appreciate the Office annually sharing Focus Areas.
            • The majority of the reviewers have no real world experience making loans,
               nor operating an institution, thus they have limited credibility in assisting any
               one institution with recommendations for improvement. They know policies
               and that’s about it.
            • The system oversight initiatives are always fully explained; however, it is
               difficult to relate some of those activities to our local operations.
            • We are concerned that the integrity and effectiveness of the regulation
               process may be circumvented with the increased use of bookletters and
               informational memorandums.
            • The examiners provide sound direction on regulatory guidelines as well as
               opinions on best practices.

                                 General Questions 9, 10, and 11

Survey Item 9:          What aspect of the examination process did you find most beneficial?

                •    Best practice conversations, ideas and insight the exam team observed in
                     other Farm Credit institutions.
                •    They were not intrusive to our normal course of business.
                •    Examiners were willing to listen to the institution’s point of view. Examiners
                     bring perspective from what they saw in other institutions.
                •    Examination discussions focused on “Best Practices” was very useful.
                •    Strong IT background of examiners allows for valuable feedback on technical
                     initiatives.
                •    Open dialogue with examination staff.
                •    Just good communication.
                •    Risk Identification and Credit Administration.
                •    If I have to wait on FCA to tell me and the Board the condition of our
                     organization, the Board needs to replace the management team. So there is
                     limited benefit of the examination process.
                •    Sharing best practices.
                •    This institution’s management and board always appreciate the FCA
                     examination. This examination is one of the best mitigators of risk to the
                     institution. Examiners are knowledgeable, thorough, and fair in their evaluation
                     of the institution. We find the examination process to be value added.



 December 20, 2012                                                                                           7
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                •    The in-person meeting with the Board helped provide context for the written
                     report.
                •    Interaction with examiners when they have insight as to where the agency is
                     coming from with requests and where they are taking it—though all this info is
                     limited at an examiner level.
                •    Sharing of best practices.
                •    The regular communication with our EIC concerning FCA focus areas and how
                     they relate to institution’s operations.
                •    Dialogue with the examiner.
                •    Several helpful suggestions were made to improve our operations by our Lead
                     Examiner.
                •    Face-to-face meetings with EIC during exam.
                •    The insight and guidance that our EIC brings to the table.
                •    Open dialogue with examiners.
                •    Examiners’ attitude appeared to be more constructive/helpful than experienced
                     in previous exams. Both the loan exit conference with Board Chairpersons and
                     the final exit exam presentation were very helpful and professional.
                •    The closeout was very helpful in providing direction on concern areas.

Survey Item 10:         What aspect of the examination process did you find least beneficial?

                •    Two ACAs merged in 2012. In September we had a visit from FCA to deliver
                     the latest review of the merging ACA. The merging ACA was under FCA
                     supervision. We were told by FCA that we would score all 2's in the FIRS
                     ratings even though the ratios and numbers did not support 2's in all
                     categories. Many were 1's. When questioned about it the FCA representative
                     stated it was a subjective score and not objective. I know for a fact that all
                     other institutions are scored by the scoring system developed by FCA and our
                     ACA, the acquiring ACA, was scored on that system prior to merger. If FCA is
                     going to have a scoring system then that system should be good for each and
                     every institution. It appeared that the FCA representative was biased toward
                     the institution and the CEO. The FCA representative stated that with any
                     merger that this was the position of FCA and I beg to differ because this is not
                     factual. The FCA representative stated that once trends were established that
                     the scores then would be objectively used. This again is in question and does
                     not appear to be the consistent behavior of this representative. The acquiring
                     ACA consistently had one of the highest CIPA scores in the District and
                     Management always scored a 2 which is not consistent with the comments of
                     the FCA representative. We want to be measured as all other institutions are
                     measured and take offense that we are not.
                •    Non-critical, technical/policy/procedure recommendations that could easily be
                     resolved in the normal course of business without being formalized in the final
                     report.
                •    The discussion on how the institution intends to utilize its capital to help support
                     the struggling dairy industry seemed confusing when compared to the
                     discussion relating to the FIRS rating areas of Capital and Asset Quality.
                •    Recommendations re: board policies may be more appropriate to the
                     establishment of operating procedures.
                •    Nothing to report. Very professional.

 December 20, 2012                                                                                           8
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                •    FCA’s directive regarding changes to the distressed loan notice was unclear
                     and that the institution just learned about it in October of 2011 through a
                     training conference that one of the institution’s loan officers attended and at a
                     RAW conference. Thereafter, the institution attempted to contact an FCA
                     Attorney for clarification, but never received a response. Therefore, the
                     distressed loan notice was not changed until February of 2012.
                •    The application of Informational Memorandums and bookletters as well as
                     interpretation of regulations, particularly new regulations, could be better
                     coordinated between FCA and the examination staff. Perhaps this is simply
                     timing issues and could be more noticeable during periods when many
                     communications and regulations are being issued.
                •    Minor requirements and requests that are NOT risk based, but just new
                     direction someone wanted to go without regard to risk.
                •    Some exams are one size fits all and not reflective of the size, risk, complexity
                     or internal control environment in the institution. When this occurs, it feels
                     more like a checklist review rather than evaluating safety and soundness.
                •    The Institution’s condition has been improving over the past couple of years
                     and we contribute some of that progress to the FCA examinations.
                •    Reporting redundancy that creates inefficiency.
                •    Struggled with scheduled dates as we were trying to have a Board Meeting and
                     our Stockholders Meeting at the same time they were on site. Ask that we
                     avoid this in the future.
                •    FIRS rating.
                •    End of quarter adjustments. Lack of clarity and consistence with SOC
                     regulation.


Survey Item 11:          Please provide any comments from the Board as a whole regarding the
                         examination process not provided in the preceding responses.

                •    The board is extremely disappointed in the FIRS rating system. Particularly as
                     it relates to our institution. In every objective area our institution is a one rating
                     and yet management is rated 2. This seems to be a completely arbitrary rating
                     and not appropriate.
                •    At the FCS Management Exit Conference [attended by our Chairman, FCA
                     reported on their review of the quality of borrower financial information stating
                     that this is a system-wide Agency focus which is not unique to our institution.
                     FCA stated that the quality of financial statements from borrowers should be
                     raised to a higher standard as the loan examination identified several credits
                     where financial statements did not meet management’s minimum
                     requirements; i.e. audited financial statements. FCA noted that in all cases,
                     waivers to lending guidelines were approved per institution policy and
                     procedures; however, some large loan complexes were approved as
                     exceptions after release of the March 29, 2011 FCA Informational
                     Memorandum. FCA stated that as discussed in the Memorandum, higher
                     quality financial statements become critical for large commercial operations.
                     FCA noted weaknesses in the internal reporting of large and complex
                     operations can undermine the reliability of internally prepared statements as
                     shown in one of our accounts. FCA stated that the Agency expects higher
                     quality statements from complex loans. FCA stated that we need to enforce

 December 20, 2012                                                                                            9
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                    existing procedures regarding quality of financial information and raise our
                    expectations to the Informational Memorandum standard. Our CCO responded
                    stating that although Management appreciates FCA's stance, we take
                    exception with the statement that our procedures do not address the
                    Informational Memorandum, because they do adequately address the quality of
                    financial information required as approved by our Board. Our CCO stated that
                    we need to make business decisions based on the quality of the customers and
                    competition in our marketplace while maintaining credit quality and operating in
                    a safe and sound manner. FCA responded that per the Loan Underwriting
                    Standards, if you do not meet the standard then that is an exception. FCA
                    sees a high level of waivers/approvals that vary from the Standard and these
                    will continue to be scrutinized as they can lead to severe credit quality issues
                    with "super big large complexes". FCA noted that our institution processes and
                    controls have improved, but overall FCA requires that this standard be met
                    throughout the System. Our CEO interjected that one complex loan is a risk
                    rated 4 credit, has operated for decades and is multifaceted and very strong
                    financially; he asked if FCA had disagreed with our classification of the loan
                    based on their exam guidelines. FCA stated that they did not lower any of the
                    loans that were identified as exceptions in the exam. Our CEO followed up
                    stating that our institution has quality customers and is following the policies
                    approved by the Board of Directors and management stands behind the Board
                    and their approved policies. Our institution will continue to follow these policies
                    to insure that the institution maintains outstanding quality, but, as per the
                    Board's direction, will also continue to make sound business judgments on a
                    case by case basis, which at times may require policy waivers. Our CEO
                    concluded that current credit quality of 99%, and the trend of outstanding credit
                    quality during his 14 year tenure, justifies our institution taking measured risks
                    and exercising judgment. FCA acknowledged our track record but commented
                    that there will be friction on this matter as FCA’s position comes from other
                    institutions that have had loans that started with a 4 risk rating and dropped to
                    11 and then liquidated within a year. [Our insert: When a #4 drops to a 11 and
                    is then liquidated within a year, the original loan classification by the institution
                    was wrong, and every Agency that evaluated and reviewed the loan was not
                    doing their job and or there was fraud involved. If an institution had multiple
                    loans that follow this trend [which would seem doubtful], the System, from FCA
                    down should initiate the necessary changes to end the trend]. FCA stated that
                    their position relative to the quality of borrower financial information is a
                    system-wide Agency focus which is not unique to our institution. FCA
                    reiterated that the quality of financial statements from borrowers should be
                    raised to a higher standard.
                •   The results of the exam were professionally delivered.
                •   We appreciated the communication, candor, etc.
                •   The Board and management believe the benefits derived from the examination
                    process is not cost effective for the dollars we spend each year for it.
                •   We believe the examination provides real value to our organization. The
                    examiners are knowledgeable and fully explain the scope of their examination
                    as well as any findings or recommendations. We appreciate the time the exam
                    staff take to explain and put into perspective their evaluation of our institution.
                    We appreciate the open communication and candid discussion that we have


December 20, 2012                                                                                            10
                  Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                         Regarding the Examination Function
_________________________________________________________________________________________________________


                    with the exam team during the presentation to the board and the executive
                    session with the examiners.
                •   Would like to resume past practice of a close-out with one or more directors prior
                    to final recommendations.
                •   A concern is the lack of FCA having limited to no dialogue with the other
                    regulators on the Shared National Credit classifications. We believe that they may
                    be able to influence SNC decisions with their agriculture understanding. Also,
                    when we review to determine if we should classify similar to SNC, we believe they
                    should have had some conversation with SNC to understand the rationale and
                    share with us such rationale.
                •   Conversations in the Board room reflect an overall level of satisfaction with the
                    FCA and its examination team. Because we have been operating in unfamiliar
                    territory the FCA has helped us make some critical decisions.
                •   Concern that the agency delves way past arms-length safety and soundness.
                •   Follow up conference call with senior staff, Board Chairman and Audit Committee
                    Chairman was very beneficial.
                •   The entire Board appreciated the honest and open communication style.
                •   Board had none other than the answers already noted.
                •   Collectively, the Board expressed a great deal of confidence and respect for the
                    examination team and complemented them for soliciting feedback and engaging
                    in face-to-face discussions with the Board, which proved to be extremely
                    conducive to the exchange of differing views and opinions and resulted in robust
                    and productive discussions on key topics. The Board, however, did express a
                    need for improvement in the CAMELS/FIRS rating process and the recognition of
                    our institution as a unique entity, without a broad set of peers for evaluation with
                    similar relationships to capital, interest rate risk and liquidity measures. Some
                    Board members felt that a more granular approach to the rating process would be
                    useful in that it would provide a more precise level of achievement and identify
                    trends of improvement or deterioration from one exam period to the next. Others
                    believed a more useful set of standards and measures could potentially be
                    developed to improve the value of the institutional rating.
                •   Final report was more timely delivered than in the past. Significant improvement
                    in loan review exit discussion. Attitude of entire audit team improved.




December 20, 2012                                                                                            11
                           Fourth Quarter and Fiscal Year 2012 OIG Summary Report on the Survey of FCS Institutions
                                                  Regarding the Examination Function
         _________________________________________________________________________________________________________


                                                  FY 2012 Summary Report

                                       Numeric Responses to Survey Statements 1-8




                                             PERCENTAGE OF TOTAL RESPONSES
                                                                                                            Total No.    Average
 Question      Completely                        Neither Agree                  Completely    Does Not
                                     Agree                        Disagree                                 Responses    Response
                 Agree                           nor Disagree                    Disagree      Apply *
                                      (2)                            (4)
                  (1)                                 (3)                           (5)          (6)
     1         9      15.8%    44        75.4%    4       7.0%   1       1.8%   0     0.00%   0     0.0%      58          1.9
     2        13      22.8%    38        64.9%    6      10.5%   1       1.8%   0     0.00%   0     0.0%      58          1.9
     3        10      17.5%    33        56.1%    8      14.0%   4       7.0%   0     0.00%   3     5.3%      58          1.8
     4        22      38.6%    33        56.1%    2       3.5%   0       0.0%   1     1.75%   0     0.0%      58          1.9
     5        18      31.6%    31        52.6%    7      12.3%   2       3.5%   0     0.00%   0     0.0%      58          1.8
     6        13      22.8%    39        66.7%    3       5.3%   3       5.3%   0     0.00%   0     0.0%      58          1.8
     7        15      26.3%    35        59.6%    6      10.5%   2       3.5%   0     0.00%   0     0.0%      58          1.9
     8         8      14.0%    39        66.7%    8      14.0%   1       1.8%   1     1.75%   1     1.8%      58          1.9
 Total        108              292                44             14             2             4                           1.9
 Responses



∗ “Does Not Apply” not calculated in percentages.




         December 20, 2012                                                                                                12
